      SURVEY OF ACQUISITION MANAGER EXPERIENCE
      USING THE DOD JOINT TECHNICAL ARCHITECTURE
               IN THE ACQUISITION PROCESS


Report No. D-2001-176                    August 22, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CAE                   Component Acquisition Executive
EMD                   Engineering and Manufacturing Development
JTA                   Joint Technical Architecture
PDRR                  Program Definition and Risk Reduction
PEO                   Program Executive Officer
PM                    Program Manager
USD (AT&L)            Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                       Office of the Inspector General, DoD
Report No. D-2001-176                                                August 22, 2001
  (Project No. D1999AE-0101.002)

        Survey of Acquisition Manager Experience Using the DoD
         Joint Technical Architecture in the Acquisition Process

                                   Executive Summary

Introduction. This report is the third and final in a series of reports and discusses the
use of an open systems approach in the acquisition process for weapon systems. The
first report discusses the extent that acquisition program managers considered and used
an open systems approach in the design and development of major defense weapon
systems. The second report discusses the extent that DoD planned and implemented
DoD Component use of the Joint Technical Architecture (JTA) to help achieve weapon
systems interoperability requirements and to support affordability and an open systems
approach to weapon system design. This report summarizes the results of Component
Acquisition Executive, Program Executive Officer, and program manager responses to
survey questionnaires regarding use of JTA in the acquisition process.

The open systems approach and JTA are closely linked. In the open systems approach,
acquisition program managers and contractors choose commercially supported
specifications and standards for system interfaces. JTA specifies a set of primarily
commercial specifications and standards that cover information processing, information
transfer, content, format, security, and commonality. In August 1996, the Office of the
Secretary of Defense mandated that acquisition program managers use JTA for all
command, control, communication, and intelligence systems. During November 1998,
the Office of the Secretary of Defense broadened the JTA requirement to include all
emerging capabilities or changes to an existing capability that produces, uses, or
exchanges information electronically; crosses a functional or DoD Component
boundary; or gives the warfighter or DoD decisionmaker an operational capability.

Objectives. The primary audit objectives were to evaluate DoD acquisition manager
awareness and enforcement of requirements for using applicable DoD JTA standards in
the design of weapon systems, to identify problems of program managers using JTA,
and to identify opportunities to improve the effectiveness and efficiency of JTA
implementation as a tool to help DoD achieve systems interoperability requirements.

Results. Nearly all acquisition managers (Component Acquisition Executives, Program
Executive Officers, and acquisition program managers) indicated awareness of the
requirement for complying with JTA. All Component Acquisition Executives and
Program Executive Officers indicated awareness of DoD Component JTA
implementation plans and 76 percent of responding program managers were aware of
JTA implementation plans. Program manager responses were largely positive
concerning experiences to implement JTA, but the responses also showed opportunities
for improvement. Specifically, of 81 responses from program managers:

   •   80 percent indicated that the JTA standards met established quality criteria;

   •   81 percent indicated that the JTA standards were at the proper level in the JTA
       hierarchical structure;

   •   22 percent stated that applicable JTA standards were easily identified and
       extracted, while 68 percent cited moderate effort, and 10 percent cited
       difficulty;

   •   78 percent indicated that JTA guidance was clear on the differences in program
       office use of the JTA standards designated as mandatory and those standards
       designated as emerging;

   •   62 percent stated that JTA documentation provided clear guidance for
       determining applicability of standards; and

   •   59 percent indicated that JTA requirements were included in at least one
       acquisition planning document, and 47 percent indicated JTA requirements were
       included in at least one contract-related document.

Although nearly all responding Component Acquisition Executives and Program
Executive Officers indicated that reviews were made of program office compliance with
JTA, program manager responses indicated that those compliance reviews only
moderately improved the rate of program manager inclusion of the JTA standards
requirements in acquisition planning documents and did not improve the rate of
inclusion of JTA standards requirements in contracts. The Component Acquisition
Executives and Program Executive Officers were more positive than the program
managers concerning the impact of the JTA on program execution. Sixty-two percent
of responding Component Acquisition Executives and Program Executive Officers
indicated that implementing JTA standards was a benefit in program execution, while
only 22 percent of responding program managers indicated a benefit.

Management Comments. We provided a draft of this report on July 12, 2001. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                           ii
Table of Contents
Executive Summary                                                            i

Introduction
     Background                                                             1
     Limitations                                                            4
     Objectives                                                             4
     Using the DoD Joint Technical Architecture                             5

Appendixes
     A. Audit Process
          Scope                                                             30
          Methodology                                                       30
          Prior Coverage                                                    32
     B. Definitions of Terms Relating to the Joint Technical Architecture   33
     C. Component Acquisition Executive and Program Executive Officer
          Survey Questionnaire                                              37
     D. Program Manager Survey Questionnaire                                43
     E. Component Acquisition Executives and Program Executive Officers
          Responding to Survey Questionnaires                               53
     F. Program Managers Responding to Survey Questionnaire                 54
     G. Acquisition Manager Suggestions and Comments on Improving the
          Joint Technical Architecture                                      58
     H. Baseline Responses for Each Survey Question                         59
     I. Key Acquisition Planning and Contract-Related Documents             61
     J. Report Distribution                                                 63
Background
    Need for the Joint Technical Architecture. This report is the third and final
    in a series of reports and discusses the use of an open systems approach in the
    acquisition process for weapon systems. The first report discusses the extent
    that acquisition program managers (PMs) considered and used an open systems
    approach in the design and development of major defense weapon systems. The
    second report discusses the extent that DoD planned and implemented DoD
    Component use of the Joint Technical Architecture (JTA) to help achieve
    weapon systems interoperability requirements and to support affordability and
    an open systems approach to weapon system design. This report summarizes
    the results of Component Acquisition Executive (CAE), Program Executive
    Officer (PEO), and PM responses to survey questionnaires regarding use of JTA
    in the acquisition process.

    The open systems approach and JTA are closely linked. In the open systems
    approach, PMs and contractors choose commercially supported specifications
    and standards for system interfaces. JTA prescribes a minimum set of
    information technology standards that contain consensus commercial standards
    but also include standards unique to the military and Federal Government. The
    JTA standards cover information processing, information transfer, content,
    format, security, and commonality.

    In August 1996, the Under Secretary of Defense for Acquisition, Technology,
    and Logistics (USD [AT&L]) and the Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence) mandated that PMs use
    the JTA for all DoD command, control, communication, and intelligence
    systems, and for the interfaces of these systems to other key assets, such as
    weapons and office automation systems. During March 1998, USD (AT&L)
    revised DoD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
    Acquisition Programs (MDAPs) and Major Automated Information Systems
    (MAIS) Acquisition Programs,” March 15, 1996, to require PM use of the JTA
    for those programs meeting the criteria of the August 1996 mandate.

    In May 1998, the offices of the USD (AT&L); the Assistant Secretary of
    Defense (Command, Control, Communications, and Intelligence); and the Staff
    Director for Command, Control, Communications, and Computers, Joint Chiefs
    of Staff, (the Policy Offices) agreed to broaden the use of JTA to include
    emerging capabilities, and in November 1998, issued a memorandum
    promulgating the May 1998 agreement. The memorandum required PMs to use
    JTA for all emerging capabilities, or changes to an existing capability that
    produces, uses, or exchanges information in any form electronically; crosses a
    functional or DoD Component boundary; or gives the warfighter or DoD
    decisionmaker an operational capability. In January 2001, USD (AT&L)
    revised DoD Regulation 5000.2-R to broaden the applicability of JTA, as stated
    in the November 1998 memorandum.




                                       1
The JTA:

   •   provides a foundation for interoperability among all tactical, strategic,
       and combat support systems at the technical architecture level;

   •   mandates interoperability standards and guidelines for system
       development and acquisition that will facilitate joint force operations;

   •   communicates to industry the DoD intent to consider open systems
       products and implementation; and

   •   acknowledges the direction of standards developed by industry.

JTA provides interoperability standards that apply to Information Technology
and to National Security Systems, which include weapon system segments
involving telecommunication and information exchange. DoD operates the
weapon system telecommunication and information exchange segments to fulfill
military or intelligence missions. Additionally, PMs use JTA to provide
commercial standards and specifications needed to enable interoperability and to
support an open systems design approach. The JTA does not contain every
standard that PMs may need to develop the telecommunication and information
exchange segments of weapon systems; therefore, PMs may require additional
standards to meet a system’s requirements. The DoD JTA mandates the
minimum set of standards and guidelines for the acquisition of all DoD systems
that produce, use, or exchange information.

JTA defines the service areas, interfaces, and standards (JTA elements)
applicable to all DoD systems. The standards and guidelines in JTA are
publicly available and, whenever possible, commercially supported. By itself,
JTA is not sufficient to achieve interoperability. It is complementary to other
DoD programs and initiatives aimed at the development and acquisition of
effective and interoperable information systems. These related programs and
initiatives include the Command, Control, Communications, Computers,
Intelligence, Surveillance, and Reconnaissance Architecture Framework,
developed through the DoD Architecture Coordination Council, the
Requirements Generation System, and the initiative for interoperability and
supportability of National Security Systems and Information Technology
Systems administered through the Joint Chiefs of Staff. Also, to maximize
interoperability, DoD must fully implement two additional architectures--the
Operational Architecture, which identifies warfighter relationships and
information needs, and the Systems Architecture, which relates characteristics
and capabilities of individual systems to operational requirements.

Structure of JTA. JTA consists of two main parts: the JTA core and the JTA
annexes. The JTA core contains the minimum set of JTA elements applicable to
all DoD systems to support interoperability and commonality requirements.




                                    2
The JTA annexes contain additional JTA elements applicable to specific
functional domains or families of systems. Those additional JTA elements are
needed to ensure interoperability of systems within each domain but may be
inappropriate for systems in other domains.

Appendix A provides details on DoD goals and performance measures in
response to the Government Performance and Results Act that are pertinent to
this report. Appendix B provides a listing of definitions and terms germane to
understanding DoD implementation of JTA in designing weapon systems.

Survey Questionnaires. To accomplish our audit objectives, we developed and
distributed survey questionnaires to CAEs, PEOs, and PMs for major defense
acquisition programs. Because the acquisition roles and responsibilities of those
officials were different, we developed two versions of the survey questionnaire.
One version was for CAEs and PEOs, who make policy and exercise oversight
over many acquisition programs. The other version was for PMs, who are
responsible for managing individual acquisition programs.

       CAE and PEO Questionnaire. CAEs and PEOs were asked
14 questions to determine whether the executives and officers:

           •   were aware of the requirement in DoD Regulation 5000.2-R for
               acquisition PMs to consider and use the JTA in the weapon
               system acquisition process;

           •   evaluated and enforced acquisition PM use of the JTA, where
               applicable to the design of emerging weapon systems and weapon
               system upgrades; and

           •   had ideas for improving JTA application policies and procedures.

The CAE and PEO survey questionnaire is shown in Appendix C.

       PM Survey Questionnaire. PMs were asked 24 questions to:

           •   determine whether PMs had problems in implementing JTA as
               required by DoD Regulation 5000.2-R;

           •   document PM opinions on the overall effectiveness of JTA
               implementation, the completeness and currency of the JTA
               standard inventory, and the placement of standards in the JTA
               hierarchy; and

           •   determine whether PMs had ideas for improving JTA application
               policies and procedures.

The PM survey questionnaire is shown in Appendix D.

In developing the two survey questionnaires, input was received from the
Directorate for Interoperability and the Open Systems Joint Task Force within


                                    3
     the Office of USD (AT&L) and from the Office of the Assistant Secretary of
     Defense (Command, Control, Communications, and Intelligence). The Director
     for Interoperability endorsed both versions of the survey questionnaire before
     distribution.

     Survey Participation and Universe. Responses were received from 74 percent
     (17 of 23) of the CAEs and PEOs and 94 percent (81 of 86) of the PMs to
     whom the survey questionnaires were sent. Because of the high response rates
     to the survey questionnaires, the survey responses documented the opinions of
     the majority of the DoD acquisition managers involved in the acquisition of
     major defense acquisition programs. The respondents included acquisition
     managers in the Army, Navy, Air Force, and the Office of the Secretary of
     Defense who managed major defense acquisition programs that were in program
     definition and risk reduction (PDRR), engineering and manufacturing
     development (EMD), and production acquisition phases. The major defense
     acquisition programs included new systems as well as modifications to existing
     systems. Appendix E lists the offices of the CAEs and PEOs that provided
     responses to the survey questionnaire and Appendix F lists the PMs that
     provided responses.

Limitations
     Survey questionnaires were not distributed to Acquisition Executives for DoD
     Components other than the Military Departments and the Ballistic Missile
     Defense Organization. Also the questionnaires were not provided to PMs for
     acquisition program categories other than the major Defense acquisition
     programs. Accordingly, the survey results may not be representative of JTA
     implementation and enforcement of requirements by those Acquisition
     Executives and PMs.

Objectives
     The primary audit objectives were to evaluate DoD acquisition manager
     awareness and enforcement of requirements for program use of applicable JTA
     standards in the design of weapon system segments involving information
     exchange, to identify problems of PMs using JTA, and to identify opportunities
     to improve the effectiveness and efficiency of JTA implementation as a tool to
     help DoD achieve systems interoperability requirements. Appendix A discusses
     the audit scope and methodology, as well as the prior audit coverage.




                                        4
Using the Joint Technical Architecture
Nearly 100 percent of responding acquisition managers (CAEs, PEOs,
and PMs) indicated awareness of the requirement for complying with
JTA. All responding CAEs and PEOs indicated awareness of DoD
Component JTA implementation plans, while only 76 percent of
responding PMs were aware of the JTA implementation plans. The
majority of PM responses were positive concerning use of JTA but the
responses also showed opportunities for improvement. Specifically, of
81 responses from PMs:

   •   80 percent indicated that the JTA standards met established
       quality criteria, while 20 percent stated that standards did not
       meet one or more of the quality criteria;

   •   81 percent indicated that the JTA standards were at the proper
       level in JTA hierarchical structure, while 19 percent indicated
       that some JTA standards belonged at lower levels because the
       standards were not applicable to all systems;

   •   22 percent stated that applicable JTA standards were easily
       identified and extracted, while 68 percent cited moderate effort,
       and 10 percent cited difficulty;

   •   78 percent indicated that JTA guidance was clear on the
       differences in program office use of JTA standards designated as
       mandatory and those standards designated as emerging, while
       9 percent stated that the JTA guidance was not clear, and
       13 percent provided no opinion;

   •   62 percent stated that JTA documentation provided clear guidance
       for determining applicability of standards, while 38 percent
       indicated a need for clarification of JTA guidance, and

   •   59 percent indicated that JTA requirements were included in at
       least one acquisition planning document, and 47 percent indicated
       that JTA requirements were included in at least one
       contract-related document.

Almost 100 percent of responding CAEs and PEOs indicated that they
reviewed program office compliance with JTA. However, PM responses
indicated that those compliance reviews only moderately improved the
rate of PM inclusion of JTA standards requirements in acquisition
planning documents and did not improve the rate of inclusion of JTA
standards requirements in contracts. The CAEs and PEOs were more
positive concerning the impact of the JTA on program execution. Sixty-
two percent of responding CAEs and PEOs indicated that implementing
the JTA standards was a benefit in program execution, while only
22 percent of responding program managers indicated a benefit.



                             5
Response Data Analysis
    The following sections summarize CAE, PEO, and PM responses to survey
    questionnaires. The responses to survey questionnaires and our analysis thereof
    address the following topics:

       •   awareness of JTA,

       •   quality and hierarchial placement of JTA standards,

       •   identification of applicable JTA standards,

       •   inclusion of JTA requirements in acquisition planning documents and
           contracts,

       •   review for JTA compliance, and

       •   effects of implementation of JTA on program execution and on
           promotion of system interoperability and use of open systems.

    Discussions of the preceding topics and Appendix G include suggestions and
    comments that acquisition managers offered, in response to the survey request,
    on JTA use to support developing interoperable and affordable weapon systems.
    Acquisition manager suggestions, which specifically related to one of the above
    topic areas, are included at the end of each topic. Appendix G lists 14 other
    general acquisition manager suggestions and comments on the improvement of
    JTA that did not specifically relate to one of the above topics. For example,
    acquisition managers suggested that the Policy Offices:

       •   allow PMs to be active participants in the JTA standards formation
           (one respondent),

       •   conduct JTA training seminars for engineers, system architects, and PMs
           (two respondents), and

       •   reconcile the differences between the DoD JTA and the Army and Air
           Force JTAs or eliminate the Service-unique JTAs (one respondent).

    Although audit work to validate acquisition manager suggestions was not
    performed, the suggestions are provided for information and consideration.

    Analysis of the response data for the two survey questionnaires showed that
    there were varying numbers of survey responses, or baselines, to each survey
    question. Respondents, in some cases, opted not to answer one or more
    questions. As a result, the survey results discussed were based on different
    baselines, depending on the number of respondents who provided responses to
    each question. The baselines for each question are shown in Appendix H.




                                        6
    Responses to CAE and PEO and the PM questionnaires were analyzed by total
    baseline and by DoD Component (responses from CAEs, PEOs, and PMs
    within the Army, Navy, and Air Force). For the PM survey, responses by
    program acquisition phase were also analyzed (responses from PMs with
    programs in PDDR, EMD, and production acquisition phases). In reporting the
    results, responses to the CAE and PEO and PM surveys were summarized by
    the total baseline responding to each question. Additionally, the acquisition
    manager responses by DoD Component were discussed if responses from
    managers in these Components varied substantially (more than 20 percent) from
    the average for the overall baseline for a question. PM responses by program
    acquisition phase were also discussed if responses from PMs varied substantially
    by program acquisition phase.

Awareness of the JTA
    Acquisition managers were asked two questions in order to determine awareness
    of:

       •   the requirement in DoD Regulation 5000.2-R for acquisition programs to
           comply with DoD JTA, and

       •   DoD Component JTA implementation plans.

    Additionally, CAEs and PEOs were asked whether guidance was issued to
    assigned PMs regarding the use of JTA. As discussed below, almost all of the
    responding acquisition managers stated that they were aware of the requirement
    for compliance with the DoD JTA and most stated that they were aware of
    Component JTA implementation plans. Most responding CAEs and PEOs
    indicated that guidance was issued to assigned PMs regarding the use of JTA.

    CAE and PEO Awareness and Guidance. All of the responding CAEs and
    PEOs were aware of the requirement for acquisition programs to comply with
    the DoD JTA and the Component JTA implementation plan. Seventy-five
    percent stated that guidance was issued to assigned PMs on the use of JTA. The
    awareness of CAEs and PEOs to the JTA requirement is necessary because
    those executives and officers have the responsibility to evaluate PM use or
    consideration of the JTA standards in the weapon systems design during
    program acquisition milestone reviews, periodic progress reviews between
    program milestones, and other reviews under their management purview. Also,
    the awareness of CAEs and PEOs to Component implementation plans provides
    them a management tool to determine whether PMs take a consistent approach
    to implement the JTA standards. CAE and PEO guidance issued regarding PM
    use of the JTA standards should increase PM awareness of management
    expectations for implementing the JTA.

    PM Awareness. In response to the question on awareness of requirements for
    complying with JTA, 96 percent of the responding PMs stated that their
    program staffs were aware of the requirement for acquisition programs to
    comply with JTA, while 4 percent of the PMs stated that their program staffs


                                       7
    did not know about the JTA requirement. However, only 76 percent of the PMs
    who answered the question on awareness of the requirement for complying with
    JTA acknowledged awareness of the Component JTA implementation plan.
    Twenty-four percent of the PMs did not know that the Component had a JTA
    implementation plan.

    It is important that PMs are aware of the JTA implementation plan for the DoD
    Component because it allows for understanding and implementation of the
    Component processes to assure JTA compliance, to program and budget
    resources to implement JTA compliance, and to track the JTA implementation
    progress. Component JTA implementation plans define roles and
    responsibilities to implement the JTA standards contained in individual
    acquisition programs. When PMs are aware of the Component JTA
    implementation plan, the PMs can consider and implement the use of the JTA
    standards in a consistent manner within the DoD Component. Additionally,
    JTA implementation plans provide PMs with information for processing a
    waiver request of JTA standards if they use or plan to use a standard or
    standards other than those mandated by JTA for system cost, schedule, or
    performance reasons.

    Inconsistent PM implementation of the JTA standards resulting from lack of
    awareness of the DoD Component JTA implementation plan impedes the DoD
    Components from maximizing the effectiveness of JTA as a tool for promoting
    overall DoD system interoperability requirements in individual weapon systems.
    There were no significant variances in PM responses by DoD Component or by
    acquisition program phase on awareness of JTA requirements or the DoD
    Component JTA implementation plan.

Quality and Hierarchical Placement of JTA Standards
    The PMs were asked a series of questions to determine whether the established
    JTA standards met quality criteria, as defined in the JTA Management Plan,
    April 15, 1997, for inclusion in the JTA hierarchy and whether the JTA
    standards were appropriately placed in the JTA hierarchy, as defined in JTA
    Version 3.0, November 29, 1999. If the PMs believed the standards did not
    meet the quality criteria or were inappropriately placed in the JTA hierarchy,
    the PMs were asked whether their organizations submitted change requests or
    comments to a JTA Component representative or through the format provided
    on the JTA Web home page (http://www-jta.itsi.disa.mil).

    Meeting Quality Criteria. The JTA Management Plan requires that standards
    included in JTA be critical to weapon system interoperability requirements and
    meet all of the following criteria:

        •   interoperability: enhance joint and potentially combined Service/Agency
            information exchanges and support joint activities;

        •   maturity: technically mature (have strong support in the marketplace)
            and are stable;


                                        8
   •   implementability: technically implementable;

   •   public: publicly available; and

   •   consistent with authoritative source: consistent with law, regulation,
       policy, and guidance documents.

PMs were asked whether the standards applicable to their weapon system met all
of the above selection criteria. Overall, 80 percent of the responding PMs
indicated that the established JTA standards met all of the above criteria, while
20 percent indicated that certain JTA standards did not meet one or more of the
above selection criteria. If JTA standards do not meet the quality criteria, the
JTA standards cannot fully achieve maximum effectiveness as a contributor to
weapon system interoperability.

Placement of Standards. The placement of a standard within the JTA
hierarchy dictates the applicable scope of the standard to the design of weapon
systems. The JTA hierarchy, as defined in JTA Version 3.0,
November 29, 1999, consists of two main parts: the JTA core and the JTA
annexes. Standards contained in the JTA core are applicable to all DoD systems
to support interoperability and commonality requirements. Thus, all PMs must
use the core standards to design weapon systems. The JTA annexes contain
additional JTA standards applicable to specific functional domains or families of
systems.

PMs must also use the JTA standards contained in the functional domain in
which the weapon system falls, but they are not required to use those standards
appropriate for other functional domains. The current version of JTA includes
annexes for the following domains: command, control, communications,
computers, intelligence, surveillance, and reconnaissance; combat support;
modeling and simulation; and weapon systems. JTA also includes subdomains
that contain standards covering special interoperability requirements applicable
to systems within that subdomain. Overall, JTA contains over 400 standards for
PMs and contractors to use.

PMs are required to adopt those JTA standards contained in the relevant
subdomain, parent functional domain annex, and the JTA core when designing
weapon systems. Overall, most PMs believed that the JTA standards were
properly placed in the JTA hierarchy. Specifically, 81 percent of PMs indicated
that standards in the JTA core and functional domains were placed at the correct
level in the JTA hierarchy. Nineteen percent of the responding PMs indicated
that some standards belonged at lower hierarchical levels because the standards
were not applicable to all weapon systems. Those PMs indicated the following
reasons why some standards belonged at lower levels:

   •   5 percent believed that some JTA core standards were not acceptable to
       meet their weapon system requirements and that those standards
       belonged at the domain or sub-domain levels,




                                    9
   •   7 percent believed that some standards in the JTA core and the functional
       domain that were applicable to their weapon system were not acceptable
       to meet their weapon system requirements and that those standards
       belonged in sub-domain annexes, and

   •   7 percent believed that some standards in functional domains that were
       applicable to their weapon system were not acceptable to meet their
       weapon system requirements and that those standards belonged in
       sub-domain annexes.

PM responses did not vary substantially by DoD Component or acquisition
phase.

JTA management councils must continue to exercise care in placing standards
into JTA. If JTA management councils place standards too high in the JTA
hierarchy, it could lead to PMs submitting excessive numbers of waiver requests
or incurring unnecessary costs to implement the JTA standards that are not
appropriate for individual weapon systems. Conversely, if JTA management
councils place the standards too low in the JTA hierarchy, weapon system
interoperability within the DoD and our allies could be adversely impacted.

Submitting JTA Standards Change Requests. PMs who indicated that the
JTA standards did not meet one or more of the above quality criteria or that
selected standards applicable to their weapon system were not appropriately
placed in the JTA hierarchy did not submit change requests or comments to the
JTA Component representative or through the format provided on the JTA Web
home page (http://www-jta.itsi.disa.mil). Although the majority of responding
PMs indicated satisfaction with the placement and quality of the JTA standards,
continued feedback from users regarding problems with the JTA standards is
essential if JTA is to be an effective contributor to weapon systems
interoperability. JTA management councils rely heavily on input from PMs and
contractors when making decisions on updating JTA.

Acquisition Manager Suggestions and Comments. Acquisition managers
offered the following suggestions and comments regarding the quality of JTA
standards.

   •   The JTA revision cycle does not keep pace with the rapidly evolving
       commercial industry standards. As a result, PMs may not be able to
       take advantage of the most appropriate technology for application on
       weapons systems (two respondents).

   •   When mandated standards change, PMs need documentation explaining
       the technical differences between the old and new standards to facilitate
       PM understanding and use of the new JTA standards (one respondent).




                                   10
       •   Remove the hierarchical structure with the pressures to push the JTA
           standards as high in the structure as possible. The present policy results
           in mandated standards in functional domains and subdomains where
           those standards do not satisfy weapon system requirements of the PMs
           (two respondents).

Identifying Applicable JTA Standards
    We asked the PMs a series of questions on the JTA guidance in JTA
    Version 3.0, November 29, 1999, to determine:

           •   ease or difficulty in selecting applicable standards and protocols from
               JTA for use in weapon systems design,

           •   clarity of guidance relating to program office use of standards JTA
               classifies as mandated versus those it classifies as emerging, and

           •   clarity of guidance for determining applicability of the JTA standards
               to individual weapon systems.

    Selecting Applicable Standards and Protocols. PMs were asked to comment
    on the ease or difficulty with which program office and contractor personnel
    used the JTA standards and supporting guidance to select applicable standards
    and protocols for use in weapon systems design. Overall, 22 percent of the
    responding PMs indicated that it was easy to identify or extract applicable
    standards and protocols, 68 percent responded that, with moderate effort,
    program office and contractor personnel were able to identify the applicable
    standards and protocols; and 10 percent indicated that it was very difficult to
    search through and identify the applicable JTA standards. PM responses did not
    vary substantially by DoD Component or by acquisition phase. If JTA is to
    achieve maximum efficiency and effectiveness as a tool for increasing weapon
    systems interoperability, it is essential that PMs and contractors be able to
    readily identify the JTA standards applicable to weapon system designs.

    Mandated and Emerging Standards. PMs were asked if the JTA guidance
    contained in JTA Version 3.0, November 29, 1999, was clear on the differences
    relating to program office use of the JTA standards classified as mandatory and
    those classified as emerging. PMs are required to implement the mandated
    standards applicable to their weapon systems unless program cost, schedule, or
    performance impacts implementation. If warranted, the managers can submit a
    waiver request to CAE or to the cognizant Office of the Secretary of Defense
    Principal Staff Assistant documenting the cost, schedule, or performance
    impacts to the system that could occur through implementing specific JTA
    standards. The CAE or Principal Staff Assistant may grant waivers, but for
    mission-critical or mission-essential programs, those Officials must also forward
    granted waivers to the Offices of USD (AT&L) and the Assistant Secretary of
    Defense (Command, Control, Communications, and Intelligence) as the DoD
    Chief Information Officer, for review and concurrence.



                                        11
Emerging standards are included in JTA for information purposes to help PMs
determine those standards likely to change in the near term (within 3 years) and
to suggest those standards that should concern PMs when upgrading weapon
systems. JTA management councils normally elevate emerging standards to
mandated standards when industry implementations of the standards mature.
PMs may implement emerging standards but not in place of mandated standards.

Overall, 78 percent of the responding PMs indicated that the JTA guidance was
clear on the differences relating to program office use of standards JTA
classified as mandatory and those it classified as emerging. Nine percent,
however, stated that the guidance was not clear, and 13 percent stated that the
question was not applicable for their program office. PM responses did not
vary substantially by DoD Component or acquisition phase.

Clarity of JTA Guidance. PMs were asked to comment on the clarity of the
JTA guidance for determining which JTA standards were applicable to their
weapon system when building a system specific standard profile. Overall,
62 percent of the respondents indicated that the JTA guidance provided
informed users (design engineers with a grasp of the mission, function, and
basic plans for development or upgrade of a system) with clear guidance to
determine which standards and protocols were applicable to their weapon
systems. Thirty-eight percent of respondents stated that the JTA guidance
should be modified to provide users with a more efficient means for obtaining a
user-specific profile of the JTA standards and to determine which standards and
protocols apply to weapon systems. PM responses did not vary substantially by
DoD Component or acquisition phase. If PMs and contractors are to be
effective and efficient in selecting the JTA standards applicable to their
programs, it is essential that the JTA guidance be clear to enable easy
identification of the applicable JTA standards.

Acquisition Manager Suggestions and Comments. Acquisition managers
offered the following suggestions and comments regarding the ease of
identifying applicable JTA standards.

   •   JTA must provide a sufficient amount of detail describing each standard
       to enable program offices to determine applicability to their weapon
       system program. Because program offices must pay for access to many
       standards identified in JTA, the respondent stated that it was not cost-
       effective for PMs to pay for documentation for a candidate standard,
       only to find out that that the standard did not apply (one respondent).

   •   Standard descriptions must include lower level profiles. Many of the
       standards have lower level options that program offices must select to
       actually achieve weapons system interoperability requirements (one
       respondent).

   •   Improve accessibility of standards. Many of the mandated standards are
       difficult to obtain in a timely or cost-effective manner (two respondents).




                                   12
             •    The list of standards in the JTA is large and growing. If the JTA
                  continues to grow and contain every variant, it will be of little value in
                  the future (one respondent).

Including JTA Requirements in Acquisition Planning
  Documents
       PMs were asked whether JTA requirements were included in their mission
       needs statements, operational requirements documents, or other acquisition
       planning documents, such as the technical requirements document, the
       functional requirements document, and the command, control, communication,
       computers, and intelligence support plan. Appendix I provides an overview of
       the purpose of the acquisition planning documents and describes the relationship
       to JTA implementation.

       In Acquisition Planning Documents. Overall, 59 percent of the responding
       PMs stated that JTA requirements were included in at least one of the
       acquisition planning documents (25 percent of the responding PMs included the
       requirements in two or more documents). The operational requirements
       document was the document in which DoD Components most commonly
       inserted JTA requirements. Forty-five percent of responding PMs stated that
       JTA requirements were inserted in the operational requirements document.
       Table 1 provides a breakout of the percentages of DoD Components and PMs
       that included JTA requirements in various combinations of the acquisition
       planning documents.


        Table 1. Percentage of Acquisition Programs That Included JTA
               Requirements In Acquisition Planning Documents

                                                                                            Percentage of
 Acquisition Planning Documents                                                             Respondents

 Mission Needs Statement Only                                                                     0
 Operational Requirements Document Only*                                                         22
 Mission Needs Statement and Operational Requirements
    Document*                                                                                     3
 Other Acquisition Planning Documents Only                                                       14
 Mission Needs Statement, Operational Requirements
    Document, and Other Acquisition Planning Documents*                                           1
 Operational Requirements Document and
    Other Acquisition Planning Documents*                                                        19

     Total                                                                                       59
 *
  Forty-five percent of responding PMs indicated that the DoD Components included JTA requirements in the
 operational requirements document or in the operational requirements document and a combination of other acquisition
 planning documents.




                                                           13
Not in Acquisition Planning Documents. Forty-one percent of the PMs
responded that JTA requirements were not included in any of the above
acquisition planning documents. Figures 1 and 2 provide breakouts, by DoD
Component and program acquisition phase, respectively, of the percentages of
DoD Components and PMs that did not include JTA requirements in any of the
acquisition planning documents.


                               70                            64
                               60
                                    44                                                     41
                               50              36
                 Percent




                               40
                               30
                               20
                               10                                           0
                               0
                                     Army      Navy     Air Force     Other*         Overall
                                            DoD Components and Overall Average

        *Ballistic Missile Defense Organization (6 PMs) and Joint Programs (4 PMs)




Figure 1. Percentage of Acquisition Programs, By DoD Component, Not
Including JTA Requirements in Acquisition Planning Documents


                    70                                        64
                    60
                                              44                                                41
                    50                                                          36
       Percent




                    40
                    30
                    20 12
                    10
                           0
                                    PDRR       EMD       Production       Other*         Overall
                                             Acquisition Phase and Overall Average

    *PMs specified that their programs were in multiple phases.



Figure 2. Percentage of Acquisition Programs, By Acquisition Phase, Not
Including JTA Requirements in Acquisition Planning Documents



                                                      14
As shown in Figure 1, the percentage of Air Force PMs not including JTA
requirements in at least one acquisition planning document was substantially
greater than the overall average (64 percent compared to 41 percent). All of the
PMs in the other DoD Component category, which contains only 10 programs,
included JTA requirements in at least one acquisition planning document.

As shown in Figure 2, DoD Components and PMs that did not include JTA
requirements in at least one acquisition planning document had programs in the
PDRR, EMD, and production program acquisition phases. The 12 percent of
acquisition programs in the PDRR phase that did not include JTA requirements
in acquisition planning documents was substantially lower than the overall
average of 41 percent, while 64 percent of programs in the production phase,
which did not include JTA requirements, was substantially higher than the
overall average. Because PDDR is the first acquisition phase of any acquisition
program, those results show that DoD Components and PMs for the newer
acquisition programs tended to incorporate JTA requirements into their planning
documents at a higher rate than programs in EMD and production phases.

Survey responses were reviewed from 13 PMs who provided explanations for
programs that did not have language concerning the required use of JTA or
JTA-compliant Component technical architecture standards requirements in the
mission needs statement and the operational requirements document. The most
common explanation, which 6 of the 13 PMs cited, was that the development
contract (and therefore the mission needs statement and the operational
requirements document) predated the JTA. However, that reason was not valid
because the Policy Offices memorandums, “Implementation of the DoD
Technical Architecture,” August 22, 1996 (Version 1.0) and “DoD Joint
Technical Architecture (JTA) Version 2.0,” November 30, 1998, state that
implementation of JTA Versions 1.0 and 2.0 is effective immediately for all
emerging programs or for modification to existing programs unless the CAE
granted a waiver based on cost, schedule, or performance impacts of using the
JTA standards.

PMs gave further explanations why the DoD Components did not insert JTA
standards requirements in the mission needs statement and the operational
requirements document. Those reasons included no weapon system requirement
for interoperability (three PMs), documents not yet completed (one PM), and
other reasons (three PMs). Other reasons included: the system development
contract was not based on Federal Acquisition Regulation requirements, the
contract complied with system design requirements of non-DoD agencies, and
the contract already contained a requirement for the contractor to use the JTA
standards.

Timing for Including JTA Standards in Acquisition Planning Documents.
DoD Components and PMs should include the JTA standards in acquisition
planning documents supporting the development of a weapon system as early as
possible in the acquisition process, starting when the weapon system is in the
PDDR acquisition phase. During this acquisition phase, the PMs refine
assessments of alternative concepts through efforts to reduce program risks
associated with weapon system development, manufacturing, and support.


                                   15
    PMs can also implement the JTA standards after weapon systems have already
    entered EMD and production phases. During the EMD phase, PMs translate
    the most promising design approach into a stable, interoperable, producible,
    supportable, and cost-effective design and can fully implement JTA standards
    applicable to the weapon system. It is also not too late to introduce the
    implementation of the JTA standards into a weapon system during the
    production phase. During production, PMs try to achieve an operational
    capability that satisfies mission needs and resolves and verifies fixes encountered
    during testing before the programs enter production. PMs also assess the
    potential for modifications to the system design and may plan for future
    improvements to the weapon system. PMs can introduce the implementation of
    the JTA standards into the weapon system design as modifications are made to
    the fielded weapon system.

Including the JTA Requirements in Contract-Related
  Documents
    PMs were asked a question regarding the inclusion of JTA requirements in
    contract-related documents. Specifically, PMs were queried about the inclusion
    of JTA requirements in the request for proposal, the most recent prime contract,
    and modifications to the prime contract. Almost half of the responding PMs
    indicated that they inserted JTA requirements in their contract-related
    documents. Appendix I provides an overview of the purpose of the
    contract-related documents and describes how the documents relate to the
    implementation of JTA.

    In Contract-Related Documents. Overall, 47 percent of the responding PMs
    indicated that JTA requirements were included in at least one of the three
    contract-related documents (with 19 percent that included JTA requirements in
    two or more documents). Table 2 provides a breakout of the percentages of
    PMs that included JTA requirements in combinations of the contract-related
    documents.


           Table 2. Percentage of Program Managers that Included JTA
                   Requirements in Contract-Related Documents
                                                                       Percentage of
     Contract-Related Document                                         Respondents

     Request For Proposal Only                                              12
     Prime Contract Only                                                     3
     Contract Modification Only                                             13
     Request For Proposal and Prime Contract                                10
     Request For Proposal and Contract Modification                          1
     Request For Proposal, Prime Contract, and Contract Modification         8

       Total                                                                47




                                             16
Not In Contract-Related Documents. Fifty-three percent of responding PMs
stated that JTA requirements were not included in any of the contract-related
documents. The percentage of PMs in the Army, Navy, and Air Force that did
not include JTA requirements in their most recent contract-related documents
did not vary substantially from the 53 percent overall average for the DoD
Components. Figure 3 shows a breakout by acquisition phase for the PMs who
did not include JTA requirements in any of the three contract-related documents.



                                       63                      68
                   70                                                  55          53
                   60
                   50
                   40 24
         Percent




                   30
                   20
                   10
                   0
                        PDRR            EMD          Production     Other*   Overall
                                     Acquisition Phase and Overall Average

     *PMs specified that their programs were in multiple phases.



Figure 3. Percentage of Program Managers, By Acquisition Phase, That
Did Not Include JTA Requirements in Contract-Related Documents

As shown in Figure 3, PMs with programs in the PDRR phase that did not
include JTA requirements in the contract-related documents were substantially
lower than the 53 percent overall average. As with the acquisition planning
documents discussed earlier, the lower percentages in the PDRR phase show
that PMs for the newer acquisition programs tended to incorporate JTA
requirements into the acquisition planning documents earlier than the PMs for
programs in EMD and production phases. Implementation of the JTA standards
in the development of a weapon system should occur as early as possible in the
acquisition process. The optimum time is during the PDRR acquisition phase
because the PM is refining assessments of alternative concepts through efforts to
reduce program risks associated with weapon system development, technology,
manufacturing, and support.

Survey responses were reviewed from the 10 PMs who provided explanations
for not including language on the required use of JTA standards in requests for
proposals and contract statements of work. A common reason, which 3 of 10
PMs cited, was that the development contract predated the JTA. The timing of
the introduction of the JTA does not exempt PMs from the requirement to use
JTA standards when upgrading systems. Another common reason, which three


                                                17
    other PMs cited, was that their system was a subsection of a larger program and
    that weapon system interoperability was the responsibility of the PM for the
    larger program. The other four PMs cited different reasons for contractors not
    using JTA standards. Those reasons included: JTA exemption was granted in
    the Component JTA implementation plan, operational requirements documents
    did not require use of the JTA standards, weapon systems architecture was not
    yet defined, and contract was not based on Federal Acquisition Regulation
    requirements.

CAE and PEO Reviews for JTA Compliance
    CAEs and PEOs were asked if reviews were performed to determine whether
    their assigned programs complied with the DoD Regulation 5000.2-R
    requirement for PMs to use the JTA standards in the design of weapon systems.
    CAEs and PEOs were also asked questions concerning:

       •   the timing of JTA reviews,

       •   what acquisition planning documents were reviewed for JTA references,

       •   whether JTA reviews led to directions to PMs to revise acquisition
           strategies, and

       •   whether outside assistance was used to review assigned weapon system
           programs for JTA compliance.

    PMs were also asked questions to determine whether their staffs or other DoD
    organizations assessed or planned to assess whether their program was
    compliant with JTA.

    CAEs and PEOs. Almost all responding CAEs and PEOs indicated that their
    offices, at various times, performed at least some review of their assigned
    weapon system programs to determine whether the programs complied with
    requirements for JTA standards application. The operational requirements
    document and the test and evaluation master plan were most commonly
    reviewed for JTA references. Based on their reviews of PM compliance with
    JTA requirements, about one-third of the respondents provided PMs with
    direction for revision of program acquisition strategies to implement the JTA
    standards. Additionally, the majority of CAEs and PEOs that directed changes
    to program acquisition strategies also stated that help was received from offices
    or groups outside their office to review the use of the JTA standards in weapon
    system acquisition planning documents.

            Timing of JTA Reviews. CAEs and PEOs were asked whether their
    offices reviewed the use of JTA as part of program acquisition milestone
    reviews, periodic progress reviews between program milestones, or other
    reviews. Overall, 94 percent of the responding CAEs and PEOs indicated that
    they reviewed the implementation of JTA requirements at one or more of those
    reviews. Table 3 shows the percentages of CAE and PEO respondents that


                                        18
performed program reviews or a combination of reviews to determine the
implementation of JTA requirements by PMs in program acquisition planning
documentation.


   Table 3. Percentage of CAEs and PEOs that Reviewed the
   Use of JTA Standards by PMs as Part of Program Reviews

                                                                            Percentage of
 Type of Program Review                                                     Respondents

 Program Milestone Reviews Only                                                  75
 Program Progress Reviews Between
    Milestone Reviews Only                                                       75
 Milestone Reviews and Progress Reviews                                          44
 Other Reviews*                                                                  13
 Milestone Reviews, Progress Reviews
    And Other Reviews                                                            38
 At Least One of the Above Reviews                                               94

 *Other Reviews consisted of business reviews, technical meetings, reviews of operational
 requirements documents and requests for proposal, integrated product team reviews, and test
 readiness reviews.




As illustrated in Table 3, the most common timing for JTA review was at
program milestone reviews and at periodic progress reviews between milestone
decision points. Seventy-five percent of the respondents indicated that reviews
were performed at those times. CAE and PEO review of the JTA standards use
between milestone reviews allowed PMs to make timely adjustments to program
acquisition strategies as needed. CAE and PEO milestone reviews most
frequently involved followup on issues noted in periodic progress reviews
between milestone reviews.

       Acquisition Planning Documents Reviewed. CAEs and PEOs were
asked whether they reviewed program mission needs statements, operational
requirements documents, or other acquisition planning documents to determine
whether those documents contained references to DoD JTA or the DoD
Component technical architecture. Ninety-four percent of the responding CAEs
and PEOs indicated that at least one of those documents was reviewed for
references to JTA standards. Table 4 shows the percentages of respondents that
reviewed each document.




                                                  19
         Table 4. Percentage of CAEs and PEOs that Reviewed
          Acquisition Planning Documents for JTA References

                                                            Percentage of
 Acquisition Planning Document                              Respondents

 Mission Needs Statement Only                                    44
 Operational Requirements Document Only                          94
 Misssion Needs Statement And
    Operational Requirements Document                            44
 Other Acquisition Planning Documents                            44
 None                                                             6


As shown in Table 4, 94 percent of the CAEs and PEOs stated that the
operational requirements document requirements were reviewed for references
to JTA.

        Effect of JTA Reviews. In a follow-on question, CAEs and PEOs that
indicated they reviewed the mission needs statement and the operational
requirements document were asked whether the review led them to direct
assigned PMs to revise acquisition strategies to better apply the JTA standards.
Thirty-one percent of the respondents stated that the reviews led them to direct
revisions of PM acquisition strategies.

        Assistance in Reviewing Assigned Programs. CAEs and PEOs were
also asked whether any office or group outside their offices assisted them in
reviewing the use of JTA by assigned PMs. Overall, 60 percent of the
respondents (all Army) stated that outside offices or groups assisted in reviewing
the use of JTA by assigned PMs. Outside offices or groups can be helpful in
reviewing the use of JTA standards by PMs because they can provide an
independent perspective and specialized experience that may not be available
within CAE and PEO offices.

Program Managers. PMs were almost equally divided between those
responding that their programs were subject to program assessments for JTA
compliance (49 percent) and those programs that were not subject to program
assessments for JTA compliance (51 percent). By acquisition program phases,
responses of PMs by DoD Components were almost equal.

PM responses indicated that CAE and PEO compliance assessments of PM
implementation of the JTA standards had a moderate influence on the inclusion
of JTA requirements in the mission needs statement, the operational
requirements document, and other acquisition planning documents. For those
programs where the PM indicated that the program was subject to a program
assessment for JTA compliance, 59 percent of the PMs indicated they included
JTA requirements in one or more of the acquisition planning documents. For




                                     20
    programs not subject to a JTA program assessment, only 41 percent of the PMs
    stated that they included JTA requirements in one or more of the acquisition
    planning documents.

    The PM responses indicated that CAE and PEO compliance assessments of the
    implementation of the JTA standards had no influence on inclusion of JTA
    requirements by PMs in contractual documents, including the request for
    proposal, prime contract, and contract modifications. In those programs where
    PMs indicated that their program was subject to an assessment, 46 percent of
    the PMs indicated that they had included JTA requirements in one or more of
    the contractual documents versus 54 percent of the PMs when a JTA program
    assessment was not performed or planned. Based on the PM responses, CAEs
    and PEOs need to emphasize and enforce the requirement that PMs include JTA
    requirements in contract-related documents when performing JTA compliance
    reviews. The contract provisions guide the contractor in designing the weapon
    system. Therefore, weapon system contracts must contain provisions for
    implementing the JTA standards to help DoD achieve systems interoperability
    requirements between systems.

Effects of Implementing the JTA
    Two questions were asked of CAEs, PEOs, and PMs to determine whether
    implementing JTA:

           •   was a benefit or a hindrance in executing programs and

           •   was a viable means for promoting:

               − the necessary level of interoperability between systems and

               − the use of an open systems approach in weapon system design.

    Program Execution. CAEs and PEOs were more positive than the PMs
    concerning the impact of JTA on program execution.

           CAEs and PEOs. Overall, 62 percent of the responding CAEs and
    PEOs indicated that implementing JTA was a benefit in executing programs and
    38 percent indicated that implementing the JTA had no impact or hindered
    program execution. CAE and PEO responses regarding the impact of
    implementing JTA in executing programs did not vary substantially by DoD
    Component.

    CAEs and PEOs that responded that implementation of JTA benefited program
    execution provided the following reasons for the positive responses.

               •   Use of the JTA standards provided system developers with
                   increased confidence in system interoperability characteristics
                   resulting in avoidance of costs for unnecessary rework, retest,
                   and maintenance (two respondents).


                                        21
          •   JTA standards provided system developers with needed guidance
              for assuring interoperability of their system with other systems,
              including Joint and Allied systems (two respondents).

          •   JTA standards provided an excellent source of information on
              standards for developing systems (one respondent).

CAEs and PEOs who responded that implementation of JTA hindered program
execution provided the following reasons for negative responses.

          •   JTA-specified standards that were outside the scope of the JTA
              charter and the preparation of waiver requests for reasonable
              deviations from the JTA standards were time consuming and not
              funded (one respondent).

          •   Implementation of JTA standards required PMs to take more
              steps and effort with little or no return on investment (one
              respondent).

          •   JTA management councils did not adapt and clarify new JTA
              standards in a timely manner, leaving programs at risk if the
              latest contractor-off-the-shelf tools were used (one respondent).

          •   JTA-mandated aviation standards were minimal or limited to
              command, control, communications. computers, and intelligence.
              If DoD expanded the use of JTA standards beyond
              interoperability requirements, JTA could become a hindrance and
              a program cost driver (one respondent).

        Program Managers. Unlike CAEs and PEOs, a minority of PM
respondents viewed the use of JTA standards positively. Overall, 22 percent of
responding PMs indicated that implementation of JTA standards was a benefit to
program execution. Seventy-eight percent of PMs indicated that implementation
of JTA standards had no impact or hindered program execution. As indicated in
Figure 4, PM responses varied substantially by program acquisition phase.
Forty-four percent of PMs for programs in the PDRR phase responded that
implementation of the JTA standards benefited program execution. That was
twice the overall average of 22 percent. Because PDRR is the first acquisition
phase of any acquisition program, those results show that the DoD Components
and PMs for the newer acquisition programs are more likely to view
implementation of the JTA as a benefit to program execution.




                                   22
                                                  86              90        84
                        100                                                           78

                         80        56
                              44


          Percent
                         60
                         40                                            16        22
                                          14              10
                         20
                          0
                              PDRR         EMD         Production      Other*    Overall
                                        Acquisition Phase and Overall Average


                                        Benefit    No Impact/ Hindrance



    *PMs specified that their programs were in multiple phases.



Figure 4. Percentage of PM Respondents, by Acquisition Phase, that
Indicated Implementation of the JTA Standards Was a Benefit or Had No
Impact or was a Hindrance to Program Execution

PM responses did not vary substantially by DoD Component.

PMs who responded that implementation of the JTA standards benefited
program execution provided the following reasons for positive responses.

                    •    JTA standards act as a guide to keep PMs focused during the
                         weapon systems design process by enabling PMs to measure their
                         system design against current and emerging standards (one
                         respondent).

                    •    JTA standards serve as a reference tool for use by PMs to
                         monitor the evolution of the weapon systems architecture and to
                         prepare performance based specifications, particularly
                         interoperability specifications (one respondent).

PMs who responded that implementation of the JTA standards hindered program
execution provided the following reasons for negative responses.

                    •    Implementation of the JTA standards caused negative cost,
                         schedule or performance impacts to their acquisition programs
                         (four respondents).

                    •    The applicability of the JTA standards was hard to determine
                         (one respondent).

                    •    Preparation of waiver requests for deviations from the JTA
                         standards was time-consuming and unfunded (one respondent).


                                                  23
          •   Implementation of the JTA standards did not guarantee
              operational interoperability between systems (one respondent).

          •   The application of mandated JTA standards, when beginning
              weapon systems design and assessing JTA compliance as
              guidance and standards emerged, caused confusion for design
              engineers (one respondent).

Promoting Interoperability Between Systems and Open Systems. The
majority of CAEs, PEOs, and PMs stated that implementation of the JTA
standards was a viable means for promoting the necessary level of
interoperability between systems and promoting the use of an open system
approach in the design of weapon systems.

       CAEs and PEOs. Overall, 64 percent of CAEs and PEOs indicated that
implementation of the JTA standards was a viable means for promoting the
necessary level of interoperability between systems and promoting the use of an
open systems approach. Other responses included:

          •   18 percent indicated that implementing the JTA standards was a
              viable means only for promoting the necessary level of
              interoperability between systems, and

          •   18 percent indicated that implementation of the JTA standards
              was a viable means only for promoting the use of an open
              systems approach.

As indicated in Figure 5, CAE and PEO responses varied substantially by DoD
Component. Although all of the responding Air Force CAEs and PEOs
indicated that the JTA standards were a viable means for promoting the
necessary level of interoperability between systems and promoting the use of an
open systems approach, only 71 percent of the Army and 43 percent of the
Navy CAEs and PEOs responded similarly. The CAEs and PEOs that indicated
the JTA standards were not a viable means for promoting interoperability
between systems or for promoting PM use of an open system approach did not
provide explanations for their assessment.




                                  24
                        100                                         100
                                 71                                         64
                                               43




              Percent
                         50                           29 29
                                       14 14                                     18 18
                                                                     0 0

                          0
                                Army           Navy           Air Force    Overall
                                   DoD Components and Overall Average

                                         Viable for Promoting:
                              Both Interoperability and Open Systems Approach
                              Interoperability Only
                              Open Systems Approach Only



Figure 5. Percentage of CAE and PEO Respondents, by DoD Component,
Who Believed that the JTA Standards Were a Viable Means for Promoting
Interoperability Between Systems and an Open Systems Design Approach

        Program Managers. Overall, 59 percent of PMs who responded
indicated that implementation of the JTA standards was a viable means for
promoting the necessary level of interoperability between systems and
promoting the use of an open systems approach. Other responses included:

          •         17 percent indicated that implementation of the JTA standards
                    was a viable means only for promoting the necessary level of
                    interoperability between systems,

          •         9 percent indicated that implementation of the JTA standards was
                    a viable means only for promoting the use of an open systems
                    approach, and

          •         15 percent indicted that implementation of the JTA standards was
                    not viable for promoting interoperability between systems or the
                    open systems approach.

As shown in Figure 6, PM responses varied substantially by DoD Component.
As with CAEs and PEOs, a higher portion of Air Force respondents indicated
that implementation of the JTA standards was a viable means for promoting the
necessary level of interoperability between systems and promoting PM use of an
open systems approach.




                                                25
             80
                                                             73


             70
                                                                                                59
                     60


             60
                                                                           50
                                         47

             50
   Percent




             40



             30                               21
                           20                                                   20
                                    20                  16                                           17
                                0                  16
                                                                                                          9   15
             20
                                                                   9 9 9             10 10

             10



             0
                      Army                Navy               Air Force     Other*               Overall
                                         DoD Components and Overall Average


                                              Viable for Promoting:
                          Both Interoperability and Open Systems Design Approach
                          Interoperability Only
                          Open Systems Design Approach Only
                          Neither Interoperability nor Open Systems Design Approach


                  *Ballistic Missile Defense Organization (6 PMs) and Joint Programs (4 PMs).



Figure 6. Percentage of Program Manager Respondents, by DoD
Component, Who Believed that Implementing JTA Standards Was a Viable
Means for Promoting Interoperability Between Systems and an Open
Systems Design Approach

As indicated in Table 5, PM responses varied substantially by acquisition phase.
A substantially higher percentage of PMs in the PDRR and EMD acquisition
phases indicated that implementation of the JTA standards was a viable means
for promoting interoperability between systems and promoting PM use of an
open system design approach.




                                                         26
          Table 5. Percentage of Program Manager Respondents, by
          Acquisition Phase, Who Believed that Implementing the JTA
         Standards Was a Viable Means for Promoting Interoperability
                   Between Systems and Open Systems Design

 DoD Acquisition Phases and PM Response on Promoting                       Percentage of
 Interoperability and an Open Systems Design Approach                      Respondents

     PDRR
       Interoperability and Open Systems Design Approach                       65
       Interoperability Only                                                    6
       Open Systems Design Approach Only                                       12
       Neither Interoperability nor Open Systems Design Approach               18

     EMD
       Interoperability and Open Systems Design Approach                       77
       Interoperability Only                                                   14
       Open Systems Design Approach Only                                        5
       Neither Interoperability nor Open Systems Design Approach                5

     Production
        Interoperability and Open Systems Design Approach                      39
        Interoperability Only                                                  22
        Open Systems Design Approach Only                                      11
        Neither Interoperability nor Open Systems Design Approach              28

     Other*
        Interoperability and Open Systems Design Approach                      50
        Interoperability Only                                                  38
        Open Systems Design Approach Only                                       0
        Neither Interoperability or Open Systems Design Approach               13

 *PMs specified that their programs were in multiple acquisition phases.




The PMs who responded that implementation of the JTA standards was not a
viable means for promoting interoperability between systems provided the
following reasons for negative responses:

               •     the implementation of JTA requires a PM to adhere to the JTA
                     standards without levying the requirement on other PMs, which
                     can impact interoperability between systems (two respondents),

               •     the JTA standards are too broad to drive interoperability
                     requirements between systems, as interoperability requires
                     agreement at a much lower level to include options of the
                     standards, data schemes, and application level protocols that the
                     JTA standards cannot address (three respondents),


                                                    27
          •   the large number of JTA standards often conflicted with other
              interoperability performance requirements so that implementing
              the JTA standards did not guarantee interoperability between
              systems (two respondents), and

          •   the JTA standards provided the weapon design staff a listing of
              standards as an enabler for interoperability between systems, but
              the JTA standards were not sufficient, by themselves, to ensure
              interoperability between systems (two respondents).

The PMs who responded that implementation of the JTA standards was not a
viable means for promoting the use of an open systems design approach
provided the following reasons for negative responses.

          •   open systems standards, because of world-wide accessibility,
              could make weapon systems too vulnerable to cyber attacks and
              denials-of-service. Also, most commercial products tend to have
              a very short product life cycle and, consequently, may be more
              costly to upgrade or replace than custom-made military products
              (one respondent);

          •   the JTA standards are a good means of providing common
              definition and expectations across programs and services, but any
              joint direction that requires an open systems design approach for
              weapons systems is not appropriate (one respondent), and

          •   promoting the use of an open systems design approach is not
              viable for ground vehicular equipment because PMs specify
              contractor use of the best available command, control,
              communications, computers, and intelligence for those systems
              early in the acquisition process (one respondent).

Overall Acquisition Manager Assessment of the Benefits of Implementation
of the JTA Standards. Although the majority of CAEs, PEOs, and PMs that
responded to the survey viewed JTA as beneficial in the promotion of program
execution, system interoperability, and an open systems design approach, the
responses and comments showed that the JTA Policy Offices and JTA
management councils need to place additional emphasis on clarifying JTA
guidance, streamlining JTA implementation, implementing other interoperability
initiatives, and consistently levying JTA requirements.

        Clarifying JTA Guidance. The Policy Offices, in the revision of the
JTA user guide, need to provide PMs more user-friendly guidance for using the
JTA. The draft version of the “DoD Joint Technical Architecture User Guide,”
April 11, 2000, Office of the Assistant Secretary of Defense (Command,
Control, Communication, and Computers), provides general information and
text for specifying use of the JTA standards in requests for proposals and
contract statements of work. The Office of the Assistant Secretary also plans to
include a general template in the user guide for incorporating the JTA standards



                                   28
use into requirements documents, including the operational requirements
document and the Command, Control, Communication, Computers, and
Intelligence (C4I) Support Plans.

        Streamlining JTA Implementation. Some acquisition managers
indicated that implementing the JTA standards had an adverse effect on the cost,
schedule, and performance elements of their programs. JTA Policy Offices
must give high priority to ongoing efforts to make it easier for PMs to identify
the JTA standards applicable to systems. In this regard, the Office of the
Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) was preparing a JTA user guide and a Virtual JTA, which is a
more automated version of JTA, to provide PMs more user-friendly guidance.
As part of the Virtual JTA, the Office of the Assistant Secretary plans to include
a capability designated as a compliance management planner. The compliance
management planner is an automated capability that will help DoD Components
and PMs to more easily identify and select JTA standards applicable to systems.
Additionally, the Policy Offices need to issue guidance for PMs to determine
cost, schedule, and performance impacts for implementing specific JTA
standards, and determination of warranted waiver requests, as agreed in
response to a recommendation in Inspector General, DoD, Report No. D-2001-
121, “Use of the Joint Technical Architecture in the Acquisition Process,”
May 14, 2001.

         Implementing Other Interoperability Initiatives. Survey respondents
are correct in stating that implementation of the JTA standards will not, by
itself, guarantee interoperability among DoD systems. JTA is complementary to
other DoD programs and initiatives aimed at the development and acquisition of
effective and interoperable information systems. Those related programs and
initiatives include the Command, Control, Communications, Computers,
Intelligence, Surveillance, and Reconnaissance Architecture Framework,
developed through the DoD Architecture Coordination Council; the
Requirements Generation System; and the initiative for interoperability and
supportability of National Security Systems and Information Technology
Systems, administered through the Joint Chiefs of Staff. Also, to maximize
interoperability, DoD must fully implement two additional architectures--the
Operational Architecture, which identifies warfighter relationships and
information needs, and the Systems Architecture, which relates characteristics
and capabilities of individual systems to operational requirements.

        Levying Interoperability Requirements. The Policy Offices need to
consistently levy JTA requirements on all acquisition programs meeting JTA
criteria established in DoD Regulation 5000.2-R. Additionally, the Policy
Offices need to continue to emphasize identifying families of systems so that
PMs and warfighters can agree on lower level applications of options within the
JTA standards, data schemes, and protocols that build interoperability between
systems.




                                    29
Appendix A. Audit Process

Scope
    We reviewed documentation dated from April through October 2000.
    Documentation consisted of responses from CAEs, PEOs, and PMs to our
    survey questionnaires on their experience implementing the JTA standards as
    part of the DoD acquisition process. We did not include the management
    control program in the objectives in this review because we addressed the
    management control program as part of Inspector General, DoD, Report
    No. D-2001-121, “Use of the DoD Joint Technical Architecture in the
    Acquisition Process,” May 14, 2001.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal.

        •   FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
            future by pursuing a focused modernization effort that maintains U.S.
            qualitative superiority in key warfighting capabilities. Transform the
            force by exploiting the Revolution in Military Affairs, and reengineer the
            Department to achieve a 21st century infrastructure. (00-DoD-2)

        •   FY2000 Subordinate Performance Goal 2.4: Meet combat forces’
            needs smarter and faster, with products and services that work better and
            cost less, by improving the efficiency of DoD acquisition processes.
            (00 DoD-2.4)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the DoD weapons system acquisition high-risk area.

Methodology
    To evaluate DoD progress in implementing the standards contained in the JTA
    in support of achieving systems interoperability between systems, we developed
    two survey questionnaires. We distributed one version to CAEs and PEOs and
    the other version to PMs.

            CAE and PEO Survey Questionnaire. We sent the CAE and PEO
    survey questionnaire, including 14 questions, to 23 CAEs and PEOs. We
    identified the 23 CAEs and PEOs from information on Internet Web Sites for
    DoD Components and from information provided by audit liaison staffs at DoD
    Components. Appendix E lists the CAEs and PEOs who participated in the JTA
    survey.


                                        30
        PM Survey Questionnaire. We sent the PM survey questionnaire,
including 24 questions, to PMs for 86 major Defense acquisition programs. We
identified the 86 major Defense acquisition programs from two memorandums
that the USD (AT&L) issued to the Secretaries of the Military Departments:

       •   “Fiscal Year 2000 Major Defense Acquisition Program (MDAP)
           Lists,” November 3, 1999, and

       •   “Updates to the Fiscal Year 2000 Major Defense Acquisition
           Program (MDAP) Lists,” February 22, 2000.

Appendix F lists the major Defense acquisition programs whose acquisition PMs
participated in the JTA survey.

To maximize survey participation and to encourage candid responses to survey
questions, we promised the respondents to each survey questionnaire that we
would keep their individual responses confidential. Additionally, the audit team
made follow-up calls to audit liaisons to ensure that CAEs, PEOs, and PMs
received the survey questionnaires and were aware of our deadline for
submitting responses.

Use of Computer-Processed Data. We did not rely on computer-processed
data to perform this audit.

Use of Technical Assistance. Technical experts from the Operations Research
Branch, Quantitative Methods Division of the Audit Followup and Technical
Support Directorate, Inspector General, DoD, assisted in the audit. The experts
assisted in developing the questions included in the CAE and PEO and the PM
survey questionnaires.

Audit Type, Dates, and Standards. We conducted this program audit from
January through June 2001, in accordance with auditing standards issued by the
Comptroller General of the United States, as implemented by the Inspector
General, DoD. We did our work in accordance with generally accepted
Government auditing standards except that we were unable to obtain an opinion
on our system of quality control. The most recent external quality control
review was withdrawn on March 15, 2001, and we will undergo a new review.

Contacts During the Audit. We visited or contacted individuals and
organizations within the DoD. Further details are available on request.




                                   31
Prior Coverage
    During the last 5 years, the Inspector General, DoD, issued two reports relating
    to use of the JTA in the acquisition process.

    Inspector General, DoD, Report No. D-2001-121, “Use of the DoD Joint
    Technical Architecture in the Acquisition Process,” May 14, 2001

    Inspector General, DoD, Report No. 98-023, “Implementation of the DoD Joint
    Technical Architecture,” November 18, 1997




                                       32
Appendix B. Definitions of Terms Relating to the
            Joint Technical Architecture
    The following definitions are germane to a general understanding of
    implementing the JTA.

    Architecture. The architecture is the organizational structure of a system or
    component and the relationships, principles, and guidelines governing the
    system design and evolution over time.

    Closed Interfaces. Closed interfaces are privately controlled system and
    subsystem boundary descriptions for interfaces that are not disclosed to the
    public or that are unique to a single supplier.

    Commercial Item. A commercial item is any item other than real property that
    is of a type customarily used for nongovernmental purposes and that has been
    sold to the general public or offered for sale to the general public.

    Information Technology Systems. Information technology systems are any
    equipment or interconnected system or subsystem of equipment that are used in
    the automatic acquisition, storage, manipulation, management, movement,
    control, display, switching, interchange, transmission, or reception of data or
    information. Information technology includes computers, ancillary equipment,
    software, firmware, and similar procedures, services, and related resources.

    Interface Standard. An interface standard specifies the physical or functional
    interface characteristics of systems, subsystems, equipment, assemblies,
    components, items or parts to permit interchangeability, interconnection,
    interoperability, compatibility, or communications.

    Interoperability. Interoperability is the ability of two or more systems or
    components to exchange data and use information.

    Joint Technical Architecture. The JTA defines the DoD minimum set of rules
    governing the arrangement, interaction, and interdependence of the parts or
    elements, whose purpose is to ensure that systems conform to a specific set of
    requirements. It identifies system services, interfaces, standards, and
    relationships.

    Legacy Systems. Legacy systems are systems currently performing a mission-
    related function. These systems may be candidates for phase-out, upgrade, or
    replacement.

    Level of Openness. The level of openness is the system, subsystem, or
    component level at which the interfaces conform to open standards. The
    contractor or supplier may control design, interfaces, repair, and




                                        33
implementation below the level of openness. The level of openness will affect
the overall performance, life-cycle costs, long-term supportability, acquisition
cycle time, interoperability, interoperability, ease of technology insertion, and
the extent of organic repair of a system.

Milestone Decision Authority. The milestone decision authority is the
individual that the Under Secretary of Defense for Acquisition, Technology, and
Logistics [or the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) for automated information programs] has
designated to approve entry of an acquisition program into the next phase of the
acquisition process.

National Security Systems. National security systems are telecommunications
and information systems that the DoD operates, the functions, operation, or use
of which involves intelligence activities, command and control of military
forces, equipment that are an integral part of a weapon system, cryptologic
activities related to national security, and are critical to the direct fulfillment of
military or intelligence missions.

Open Specifications. Open specifications are public specifications maintained
by an open, public consensus process to accommodate new technologies over
time and consistent with international standards.

Open Standards. Open standards are widely accepted and supported standards
set by recognized standards organizations or the commercial marketplace. Open
standards support interoperability, portability, and scalability and are equally
available to the general public at no cost or with a moderate license fee.

Open System. An open system is a system that implements sufficient open
standards for interfaces, services, and supporting formats to enable properly
engineered components to be used across a wide range of systems with minimal
changes, to interoperate with other components on local and remote systems,
and to interact with users in a style that facilitates portability. An open system
is characterized by the following:

       •   well defined, widely used, preferably nonproprietary interfaces and
           protocols;

       •   uses of standards which are developed and adopted by recognized
           standards bodies or the commercial marketplace;

       •   defines all aspects of system interfaces to facilitate new or additional
           systems capabilities for a wide range of applications; and

       •   explicitly provides for expanding or upgrading through the
           incorporation of additional or higher performance elements with
           minimal impact on the system.

Open Systems Approach. An open systems approach is an integrated business
and technical strategy to choose commercially supported specifications and


                                      34
standards for selected system interfaces (external, internal, functional, and
physical), products, practices, and tools, and to build systems based on modular
hardware and software design. Program selection of commercial specifications
and standards is based on:

       •   standards that industry standards bodies have adapted or industry de
           facto standards (those successful in the marketplace);

       •   market research that evaluates the short- and long-term availability of
           products;

       •   a disciplined systems engineering process that examines tradeoffs of
           performance;

       •   supportability and upgrade potential within a defined cost constraint;
           and

       •   allowance for continued access to technological innovation supported
           by many customers and a broad industrial base.

Open Systems Architecture. An open systems architecture is a system
architecture produced by an open systems approach and that uses open systems
specifications and standards to an appropriate level.

Open Systems Strategy. An open systems strategy focuses on fielding a
superior warfighting capability more quickly and more affordably by using
multiple suppliers and commercially supported practices, products,
specifications, and standards, which are selected based on performance, cost,
industry acceptance, long-term availability and supportability, and upgrade
potential.

Operational Architecture. An operational architecture is a description of the
tasks and activities, operational elements, and information flows required to
accomplish or support a military operation.

Proprietary Specifications. Proprietary specifications are exclusively owned
by a private individual or corporation under a trademark or patent, the use of
which would require a license.

Specification. A specification is a document that prescribes, in a complete,
precise and verifiable manner, the requirements, design, behavior, or
characteristics of a system or system component.

Standard. A standard is a document that establishes uniform engineering and
technical requirements for processes, procedures, practices, and methods.
Standards may also establish requirements for selection, application, and design
criteria of material.

System Architecture. A system architecture is a description, including
graphics, of systems and interconnections providing for or supporting
warfighting functions. The system architecture defines the physical connection,

                                    35
location, and identification of the key nodes, circuits, networks, and warfighting
platforms and specifies system and component performance parameters. It is
constructed to satisfy operational architecture requirements per standards
defined in the JTA. The system architecture shows how multiple systems within
a subject area link and interoperate, and may describe the internal construction
or operations of particular systems within the architecture.

Weapon System. A weapon system is an item or set of items that can be used
directly by the warfighter to carry out combat or combat support missions to
include tactical communication systems.




                                    36
Appendix C. Component Acquisition Executive
            and Program Executive Officer
            Survey Questionnaire




                     37
38
39
40
41
42
Appendix D. Program Manager Survey
            Questionnaire




                    43
44
45
46
47
48
49
50
51
52
Appendix E. Component Acquisition Executives
            and Program Executive Officers
            Responding to Survey
            Questionnaires
We received responses to the survey questionnaire from two of the four CAEs and 15
of the 19 PEOs.

CAE Responses. We received responses from the following two CAEs:

       •   Assistant Secretary of the Army (Acquisition, Logistics and Technology)
       •   Assistant Secretary of the Navy (Research, Development and Acquisition)

PEO Responses: We received responses from the following 15 Army, Navy, and Air
Force PEOs:

       Army:

           •   Air and Missile Defense
           •   Aviation
           •   Command, Control and Communications Systems
           •   Ground Combat and Support Systems
           •   Intelligence, Electronic Warfare and Sensors
           •   Tactical Missiles

       Navy:

           •   Air ASW, Assault and Special Mission Programs
           •   Carriers
           •   Expeditionary Warfare
           •   Surface Strike
           •   Tactical Air Programs
           •   Theater Surface Combatants

       Air Force:

           •   Command and Control
           •   Fighter and Bomber Programs
           •   Strategic Programs


                                         53
Appendix F. Program Managers Responding to
            Survey Questionnaire
PMs from 81 major Defense acquisition programs provided responses to the JTA
survey questionnaire.

Army PMs (17 respondents)

      •   ABRAMS UPGRADE - Abrams Tank Upgrade
      •   ATACMS-APAM - Army Tactical Missile System-Anti-Personnel
                            Anti-Materiel Blocks I/IA
      •   ATACMS-BAT - Army Tactical Missile System-Brilliant Anti-Armor
                          Submunition which includes ATACMS Blocks II/IIA,
                          BAT, and BAT P3I
      •   ATIRCM/CMWS - Advance Threat Infrared Countermeasures/Common
                            Missile Warning System
      •   BLACKHAWK (UH-60L) - Utility Helicopter
      •   BRADLEY UPGRADE - Bradley Fighting Vehicle System Upgrade
      •   CH-47F – Cargo Helicopter, Previously named ICH - Improved Cargo
                   Helicopter - CH-47D helicopter upgrade program
      •   COMANCHE – Redesignated Reconnaissance Attack Helicopter from Light
                        Helicopter
      •   CRUSADER – Redesignated CRUSADER from Advanced Field Artillery
                        System/Future Armored Resupply Vehicle (AFAS/FARV)
      •   FMTV - Family of Medium Tactical Vehicles
      •   JAVELIN – Advanced Anti-Tank Weapon System – Medium
      •   JSTARS CGS – Redesignated Joint Surveillance Target Attack Radar System
                         Common Ground Station from JSTARS Ground Station
                         Module
      •   LONGBOW APACHE - Radar-Based Target Acquisition and Fire Control
                                 System which includes airframe modifications on
                                 the APACHE Helicopter
      •   LONGBOW HELLFIRE - HELLFIRE Missile System compatible with the
                                   LONGBOW Fire Control Radar
      •   MLRS UPGRADE - Multiple Launch Rocket System Upgrade
      •   SADARM - Sense and Destroy Armor
      •   SMART-T - Secure Mobile Anti-Jam Reliable Tactical - Terminal




                                        54
Navy PMs (28 respondents):
           •    AAAV - Advanced Amphibious Assault Vehicle
           •    AIM-9X - Air-to-Air Missile Upgrade
           •    ALAM – Advanced Land Attack Missile
           •    CEC – Cooperative Engagement Capability
           •    CH-60S – Utility helicopter to replace existing CH-46D, HH-60H, SH-3, &
                          UH-1N helicopters
           •    CVN 68 - NIMITZ Class Nuclear Powered Aircraft Carriers
           •    DD 21 – 21st Century Destroyer Program
           •    DDG 51 - Guided Missile Destroyer which includes basic ship and all
                          variants
           •    E-2C REPRODUCTION - HAWKEYE Carrier-Based Early Warning
                                            Aircraft
           •    F/A-18E/F - AESA – Active Electronically Scanned Array Radar Upgrade
                                       Program for the F/A-18E/F aircraft
           •    F/A-18E/F - HORNET Naval Strike Fighter
           •    JSOW/BLU-108 – Joint Stand-Off Weapon with BLU-108 submunition
           •    JSOW/UNITARY - Joint Stand-Off Weapon with Unitary Warhead variant
           •    LHD 1 - Amphibious Assault Ship
           •    LPD 17 - Amphibious Assault Ship
           •    MIDS-LVT - Multi-Functional Information Distribution System-Low
                             Volume Terminal
           •    NESP - Navy Extremely High Frequency (EHF) Satellite Communications
                       (SATCOM) Program
           •    SH-60R - Multi-Mission Helicopter Upgrade
           •    SM 2 (Blocks I/II/III/IV) - Standard Surface-to-Air Missile 2
                                            (Blocks I/II/III/IV)
           •    SSN 21/AN/BSY-21 - SEAWOLF Class Nuclear Attack Submarine/
                                       Combat System
           •    SSN 774 - VIRGINIA CLASS Submarine
           •    STRATEGIC SEALIFT - Naval Transport Ship
           •    T-45TS - Undergraduate Jet Pilot Training System


1
    At our request, the PMs for the SSN 21 and AN/BSY-2 responded to the JTA survey questionnaire
    portions of this major Defense acquisition program separately. Therefore, we received two responses
    for this MDAP.



                                                     55
Navy PMs (continued):

      •   TACTICAL TOMAHAWK – Follow-on to TOMAHAWK Baseline missile
                                     program
      •   TRIDENT II MISSILE - Sea Launched Ballistic Missile
      •   USMC H-1 Upgrades (4BW/4BN) - United States Marine Corps Mid-life
                                           Upgrade to AH-1W Attack Helicopter
                                           and UH-1N Utility Helicopter
      •   V-22 - OSPREY - Joint Advanced Vertical Lift Aircraft

Air Force PMs (28 respondents):
      •   ABL - Airborne Laser
      •   ADVANCED EHF – Advanced Extremely High Frequency Program
      •   AMRAAM - Advanced Medium Range Air-to-Air Missile
      •   AWACS RSIP (E-3) - Airborne Warning and Control System Radar Systems
                                 Improvement Program
      •   B-1 CMUP – B-1 Lancer Penetrating Bomber Conventional Mission
                        Upgrade Programs (CMUP)
      •   B-2A - Spirit Stealth Bomber
      •   C-5 RERP – C-5 Aircraft Reliability and Re-engineering Program
      •   C-17A - Globemaster III Advanced Cargo Aircraft
      •   C-130 AMP – C-130 Aircraft Avionics Modernization Program
      •   C-130J - Hercules Cargo Aircraft
      •   DMSP – Defense Meteorological Satellite System
      •   EELV - Evolved Expendable Launch Vehicle
      •   F-22 - Advanced Tactical Fighter
      •   GBS – Global Broadcast Service
      •   JASSM - Joint Air-to-Surface Standoff Missile
      •   JDAM - Joint Direct Attack Munition
      •   JPATS - Joint Primary Aircraft Training System
      •   JSIMS - Joint Simulation System Program
      •   JSTARS - Joint Surveillance Target Attack Radar System (Aircraft)
      •   MILSTAR - Satellite Low Data Rate/Medium Data Rate Communications
                       System
      •   MINUTEMAN III GRP – Minuteman III Guidance Replacement Program
      •   MINUTEMAN III PRP – Minuteman III Propulsion Replacement Program

                                      56
Air Force PMs (continued):

          •    NAS – National Airspace System
          •    RTIP – Radar Technology Insertion Program for JSTARS Aircraft
          •    SBIRS2 - Space-Based Infrared System Program; efforts include the SBIRS
                        High Component and the SBIRS Low Component
          •    TITAN IV – Space Booster
          •    WIDEBAND GAPFILLER – Wideband communications satellite system to
                                            fill the gap between older communications
                                            satellite system and Advanced Wideband
                                            System

DoD PMs (8 respondents):

          Ballistic Missile Defense Organization Programs:

                   •   MEADS - Medium Extended Air Defense System (Army Executing
                                Agent)
                   •   Navy Area TBMD - Navy Area Theater Ballistic Missile Defense
                                        (Navy Executing Agent)
                   •   NMD - National Missile Defense Program
                   •   NTW - Navy Theater Wide Ballistic Missile Defense (Navy
                             Executing Agent)
                   •   PATRIOT PAC-3 - Patriot Advanced Capability (Army Executing
                                        Agent)
                   •   THAAD - Theater High Altitude Area Defense (Army Executing
                                Agent)

          DoD PMs – Other:

                   •   JSF - Joint Strike Fighter (Reporting alternates between the Navy and
                             Air Force Acquisition Executives; program currently reports
                             through the Air Force Acquisition Executive)
                   •   NPOESS - National Polar-Orbiting Operational Environmental
                                  Satellite System Multi-Agency weather satellite system
                                  with Department of Commerce as lead agency



2
    At our request, the PM for the SBIRS completed a JTA survey questionnaire for the SBIRS High
    Component portion and the SBIRS Low Component. Therefore, we received two responses for this
    MDAP.



                                                  57
Appendix G. Acquisition Manager Suggestions
            and Comments on Improving the
            Joint Technical Architecture
   We received comments and suggestions from acquisition managers in response
   to the following question on the CAE and PEO and the PM survey
   questionnaires: Based on your experience in implementing the JTA, please
   provide any comments or improvements you would make to Office of the
   Secretary of Defense or your DoD Component’s policies or procedures that
   would help other JTA users more effectively use the JTA to meet the objective
   of providing interoperable and affordable weapon systems:

          •   PMs should be active participants in the JTA standards formation,
          •   allow the Services, down to the system command level, to manage
              JTA,
          •   conduct JTA training seminars for engineers, system architects, and
              PMs (two responses),
          •   reconcile the differences between the DoD JTA and the Army and
              Air Force JTAs or eliminate the Service unique JTAs,
          •   develop integrated, cross-program JTA standards implementation
              schedules and funding,
          •   implement an overarching technical architecture,
          •   ensure that all weapon system interfaces (your system and external
              systems) implement the JTA standards (two responses),
          •   establish a JTA baseline and change it only when absolutely
              necessary,
          •   consolidate the various interoperability certification processes
              between DoD and Military Departments,
          •   remove Defense Information Infrastructure Common Operating
              Environment mandates from the JTA core document and place it in
              the applicable functional domain and sub-domain annexes,
          •   reexamine JTA, JTA-Army, and Defense Information Infrastructure
              Common Operating Environment to determine if they still meet the
              original intent (interoperability between systems),
          •   draw on the experience of Government research agencies and
              industry research for determining the JTA standards for avionics
              architectures,
          •   required use of the DoD JTA and JTA-Army standards appears to be
              in conflict with the goals for acquisition streamlining, and
          •   two potential problems are caused by the mandatory use of JTA:
              − non-compatibility with legacy systems and
              − difficulties with the total system performance responsibility
                   arena, such as, maintenance.


                                     58
Appendix H. Baseline Responses for Each
            Survey Question
       CAEs and PEOs returned 17 survey questionnaires and PMs returned 81 survey
       questionnaires. Because each respondent did not answer every question, there
       were varying numbers, or baselines, of survey responses to each question.
       Table H-1 shows the response baselines for the CAE and PEO survey
       questionnaire and Table H-2 shows response baselines for the PM survey
       questionnaire.




            Table H-1. Component Acquisition Executive and Program Executive
                          Officer Survey Responses by Question


Survey Question Number             Baseline        Army   Navy   Air Force


               1.                    16             7      6        3
               2.                    15             7      5        3
               3.                    16             7      6        3
               4.                    16             7      6        3
               5.                    16             7      6        3
               6.                    16             7      6        3
               7.                    16             7      6        3
               8.                    15             7      5        3
               9.                    16             7      6        3
               10.                   16             7      6        3
               11.                   16             7      6        3
               12.                   17             7      7        3
               13.                   16             7      6        3
               14.       Comments question




                                              59
                   Table H-2. Program Manager Survey Responses by Question
Survey Question Number                             Baseline                   Army   Navy   Air Force   Other*

Background           1.                               81                        17    28       26        10
                     2.                               80                        17    28       25        10
                     3.                               80                        17    28       25        10
                     4.                               78                        17    27       24        10
                     5.                               79                        17    27       25        10
                     6.                               76                        16    27       23        10
                     7.                               79                        17    28       25        10
                     8.                               80                        17    28       25        10
                     9.                               80                        17    28       25        10
                    10.                               72                        14    26       22        10

Experience           1.                               78                        17    26       25        10
                     2.                               76                        17    26       24         9
                     3.                               59                        15    19       16         9
                     4.                               61                        15    21       16         9
                     5.                               59                        14    20       17         8
                     6.                                8                         3     1        3         1
                     7.                               56                        13    21       14         8
                     8.                               15                         4     4        5         2
                     9                                27                         7    11        6         3
                    10.                               72                        16    23       23        10
                    11.                               37                         8    10       12         7
                    12.                               64                        15    19       21         9
                    13.                               66                        15    19       22        10
                    14.      Comments question

* Other: Ballistic Missile Defense Organization (6 PMs) and Joint Programs (4 PMs)




                                                           60
Appendix I. Key Acquisition Planning and
            Contract-Related Documents
   Acquisition planning and contract-related documents serve as a roadmap to PMs
   and contractors for program execution from initiation through postproduction
   support. Therefore, the Joint Chiefs of Staff and supporting organizations
   involved in the weapons systems requirements generation process and the DoD
   acquisition community must include the JTA standards requirements in key
   acquisition planning and contract-related documents to maximize JTA
   effectiveness as a tool for achieving overall DoD system interoperability. The
   key acquisition planning documents are the mission needs statement and the
   operational requirements document. The contract-related documents are the
   request for proposal, the contract statement of work, and contract modifications.
   The following discusses the general purpose of each of the two acquisition
   planning documents and the three contract-related documents as well as the
   document’s relationship to PM implementation of the JTA standards.

   Acquisition Planning Documents

          •   Mission Needs Statement. The mission needs statement is a product
              of the requirements generation system. Chairman of the Joint Chiefs
              of Staff Instruction 3170.01B, “Requirements Generation System,”
              April 15, 2001, requires DoD Components to define mission needs in
              broad operational terms in a mission needs statement. If DoD
              decisionmakers determine that a mission needs statement supports the
              need for a new system or system upgrade, the DoD Components use
              the broad requirements defined in the mission needs statement to
              develop the more detailed system requirements in the operational
              requirements document. The Instruction promotes warfighter use of
              the JTA standards by requiring that mission needs statements define
              operational needs in conformance with DoD interoperability
              standards.

          •   Operational Requirements Document. Like the mission needs
              statement, the operational requirements document is a product of the
              requirements generation system that documents required operational
              performance parameters for the proposed concept or system.
              Chairman of the Joint Chiefs of Staff Instruction 3170.01B requires
              that the DoD Components, in the operational requirements document,
              include the performance parameters, including interoperability,
              which an acquisition program must meet. The Instruction promotes
              use of JTA by requiring that system operational requirements
              documents specify that the system must comply with applicable
              information technology standards in JTA.




                                      61
Contract-Related Documents

   •   Requests for Proposal. The Federal Acquisition Regulation,
       Subpart 15.203, “Requests for Proposal,” October 1, 1999, requires
       contracting officers for negotiated acquisitions to use requests for
       proposals to communicate Government requirements to prospective
       contractors and to solicit contractor proposals. Section C of the
       request for proposal has a section that includes “External Interfaces”
       and “Compliance with Standards.” It is the responsibility of the PM
       to identify the external interface standards required and to provide a
       listing of all relevant JTA standards and other standards necessary for
       the contractor to design into National Security Systems and
       information technology systems. Through this proposal section, the
       contracting officer can advise prospective contract offerors that they
       will be required to develop a system using standards contained in the
       JTA and that their proposal must address implementing the standards
       contained in the JTA if they want to be considered as a responsive
       offeror to the request for proposals.

   •   Contract Statement of Work. The Federal Acquisition Regulation,
       Subparts 15.406-1, “Uniform Contract Format,” and 15.406-2,
       “Part 1 - The Schedule,” requires agency solicitations for contracts
       to include a statement of work or other description that defines the
       Government’s requirements. PM inclusion of the JTA standards
       requirements in this document is necessary to ensure that the
       contractor uses JTA in the system design approach. PMs can also
       use provisions in the contract statement of work, along with the
       contract data requirements list, to require the contractor to identify
       instances where cost, schedule, and performance considerations
       justify submitting a request to DoD authorities for waiver of the JTA
       standards requirements.

   •   Contract Modifications. PMs can use contract modifications to
       include the JTA standards in system design when they have not
       earlier specified the standards in the basic contract. Like the
       statement of work, PMs can also use provisions in the contract
       statement of work, along with the contract data requirements list, to
       require the contractor to identify instances where cost, schedule, and
       performance considerations justify submitting a request to DoD
       authorities for waiver of the JTA standards requirements.




                               62
Appendix J. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control Communications, and Intelligence)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Ballistic Missile Defense Agency
Director, Defense Contract Management Agency
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          63
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management,
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         64
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Mary L. Ugone
John E. Meling
Harold C. James
Patrick E. McHale
Renee L. Gaskin
Shaun B. Jeffery
Susan J. Lippolis
Henry D. Barton
Jacqueline N. Pugh
Ann A. Ferrante
